<html>
<title></title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                                 

                         [H.A.S.C. No. 116-15]

                    ENSURING RESILIENCY OF MILITARY

                    INSTALLATIONS AND OPERATIONS IN

                      RESPONSE TO CLIMATE CHANGES

                               __________

                                HEARING

                               BEFORE THE

                       SUBCOMMITTEE ON READINESS

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                             MARCH 13, 2019

                                     
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
36-876                      WASHINGTON : 2020                     
          
--------------------------------------------------------------------------------------


                       SUBCOMMITTEE ON READINESS

                  JOHN GARAMENDI, California, Chairman

TULSI GABBARD, Hawaii                DOUG LAMBORN, Colorado
ANDY KIM, New Jersey, Vice Chair     AUSTIN SCOTT, Georgia
KENDRA S. HORN, Oklahoma             JOE WILSON, South Carolina
CHRISSY HOULAHAN, Pennsylvania       ROB BISHOP, Utah
JASON CROW, Colorado                 MIKE ROGERS, Alabama
XOCHITL TORRES SMALL, New Mexico     MO BROOKS, Alabama
ELISSA SLOTKIN, Michigan             ELISE M. STEFANIK, New York
VERONICA ESCOBAR, Texas              JACK BERGMAN, Michigan
DEBRA A. HAALAND, New Mexico
               Jeanine Womble, Professional Staff Member
                Dave Sienicki, Professional Staff Member
                          Megan Handal, Clerk
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Garamendi, Hon. John, a Representative from California, Chairman, 
  Subcommittee on Readiness......................................     1
Lamborn, Hon. Doug, a Representative from Colorado, Ranking 
  Member, Subcommittee on Readiness..............................     3

                               WITNESSES

Burke, Sharon E., Senior Advisor, International Security Program 
  and Resource Security Program, New America.....................     6
Loris, Nicolas, Herbert and Joyce Morgan Fellow in Energy and 
  Environmental Policy, Center for Free Markets and Regulatory 
  Reform, The Heritage Foundation................................     8
Titley, RADM David W., USN (Ret.), Professor of Practice in 
  Meteorology and Director, Center for Solutions to Weather and 
  Climate Risk, The Pennsylvania State University................     4

                                APPENDIX

Prepared Statements:

    Burke, Sharon E..............................................    63
    Garamendi, Hon. John.........................................    41
    Lamborn, Hon. Doug...........................................    43
    Loris, Nicolas...............................................    83
    Titley, RADM David W.........................................    44

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    [There were no Questions submitted post hearing.]
    
.    
    ENSURING RESILIENCY OF MILITARY INSTALLATIONS AND OPERATIONS IN 
                      RESPONSE TO CLIMATE CHANGES

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                                 Subcommittee on Readiness,
                         Washington, DC, Wednesday, March 13, 2019.
    The subcommittee met, pursuant to call, at 2:07 p.m., in 
room 2118, Rayburn House Office Building, Hon. John Garamendi 
(chairman of the subcommittee) presiding.

OPENING STATEMENT OF HON. JOHN GARAMENDI, A REPRESENTATIVE FROM 
        CALIFORNIA, CHAIRMAN, SUBCOMMITTEE ON READINESS

    Mr. Garamendi. Good afternoon, ladies and gentlemen, now 
that we are in order in the Readiness Subcommittee of the House 
Armed Services Committee, we are good to go. I want to welcome 
our committee members.
    And the question before us: Is the U.S. military ready for 
climate change? Recent events indicate considerable doubt. Just 
this last year, Hurricanes Florence and Michael caused billions 
of dollars of damage to Camp Lejeune and leveled much of 
Tyndall Air Force Base in Florida. California wildfires led to 
the evacuation of family housing at Camp Pendleton, Naval Air 
Station Mugu, and the Marine Corps Mountain Warfare Training 
Center in the Sierras.
    In addition, our coastal installations and the surrounding 
communities are already experiencing significant flooding due 
to sea-level rise. The Army's Ronald Reagan Ballistic Missile 
Defense Test Site at the Kwajalein Atoll in the South Pacific 
is threatened by sea-level rise and may not last 20 years. The 
Navy's principal Atlantic base, Norfolk-Hampton Roads, and the 
Naval Academy are already experiencing flooding.
    Melting polar ice in the Arctic regions has already opened 
new sea routes and competition for resources. Yet it appears 
that the Department of Defense has not yet developed a systemic 
strategy for ensuring U.S. national interests in the Arctic.
    The United States military is one of the largest employers 
in the world. It is also one of the largest energy consumers. 
The DOD [Department of Defense] owns millions of acres of 
global real property, including over 550,000 facilities valued 
at over a trillion dollars, and the Department is uniquely 
situated to enhance its readiness and resiliency through 
effective energy policy and programs. Installations are where 
we generate the force, train and sustain them, and, in many 
cases, house critical operational missions.
    One way to enhance readiness is to consume less. In fiscal 
year 2017, the Department of Defense consumed over 85 million 
barrels of fuel to power ships, aircraft, combat vehicles, and 
bases. And it cost nearly $8.2 billion. In many cases, though, 
contract vehicles and energy-saving performance contracts--
these energy savings and resiliency-enhancement improvements 
can be made at no upfront cost to the Department.
    In contested environments, better fuel consumption rates 
extend the range and mitigate the risk related to resupply 
convoys. Naval vessels are vulnerable during at-sea 
replenishment. For austere land-based sites in remote locations 
supporting contingency operations, lower fuel and water 
consumption rates are an essential readiness enabler, helping 
the facility to maintain a lower profile.
    It is essential that our bases and facilities recover 
quickly from extreme weather events and energy disruptions that 
impact mission capabilities.
    Section 335 of the fiscal year 2018 National Defense 
Authorization Act required the Department of Defense to report 
on the effects of climate change on the Department and proposed 
mitigation plans. The required report was delivered to Congress 
in January 2019 and indicated that two-thirds of the 79 
installations that were reviewed are vulnerable to flooding, 
more than half are vulnerable to drought, and about half are 
vulnerable to wildfires.
    Unfortunately, the report did not meet the congressional 
reporting requirement to describe future-focused mitigation 
necessary to ensure military resiliency.
    To ensure that it can perform its national defense mandate, 
the Department of Defense must plan for a variety of 
exigencies. In the 2014 Climate Change Adaptation Roadmap, the 
Department noted that rising global temperatures, changing 
precipitation patterns, climbing sea levels, and more extreme 
weather events will intensify the challenges of global 
instability and hunger and poverty and conflict. They will 
likely lead to food and water shortages, pandemic diseases, 
disputes over refugees and resources, and destruction by 
natural disasters in regions around the globe.
    Not only are these climate-related events impacting 
installation readiness, they are also creating more frequent 
requests for the military's support for disaster relief and 
humanitarian assistance. Both Active Duty service members and 
National Guard personnel are increasingly responding to assist 
communities impacted by these events. Think Puerto Rico.
    Climate change represents a myriad of readiness challenges 
both at home and abroad. It is not only a future threat; it is 
impacting resiliency of our installations and operations today. 
The Department must act now to address these challenges.
    From our witnesses today we hope to learn from their 
perspective on readiness the impact of climate change and what 
actions the Department should be taking to address these 
challenges.
    Now, with that, I would like to turn it over to our ranking 
member, our Rocky Mountain member, Congressman Doug Lamborn, 
for your remarks.
    [The prepared statement of Mr. Garamendi can be found in 
the Appendix on page 41.]

STATEMENT OF HON. DOUG LAMBORN, A REPRESENTATIVE FROM COLORADO, 
           RANKING MEMBER, SUBCOMMITTEE ON READINESS

    Mr. Lamborn. Thank you, Mr. Chairman.
    I applaud the ongoing efforts of the Department of Defense 
to make installations more resilient and both installations and 
operations more efficient. But I wish to note from the outset 
that the Committee on Armed Services is not among the 
committees of jurisdiction for climate change matters.
    I understand that the House majority has directed each of 
the committee and subcommittee chairmen to have a hearing 
focused on climate change. However, when national energy policy 
is debated, this committee's role is to ensure that any 
emerging policy does not adversely affect military operations--
an important but much more narrow issue.
    As each of our witnesses have noted and will note in their 
testimony that we will hear in a minute, many of the 
Department's 500 installations have experienced the effects of 
severe weather. The United States Armed Forces must be prepared 
to operate in adverse conditions.
    Further, it behooves us all to conserve resources wherever 
possible. In the case of military operations, fuel and water 
are critical commodities that are needed continuously and are 
difficult to transport.
    We depend on our military forces and installations for 
national security and cannot afford lapses in either. Our 
forces and our bases must be able to operate in all conditions 
of conflict and weather. We must take responsible action to 
make military installations more resilient and responsible 
action to lighten the logistical burdens on our operational 
forces.
    I emphasize ``responsible.'' By that, I mean measures that 
enhance resiliency and national security, not arbitrary goals 
established for other reasons. I raise this concern because, in 
the past, environmentally based mandates have squandered too 
much money and effort on greening the military.
    Given the small percentage of the Nation's total power 
usage that DOD represents, placing arbitrary and costly 
mandates upon the military does not meaningfully affect global 
climate change, but it does reduce the Department's readiness.
    As we seek to enhance the resiliency of bases and reduce 
the vulnerability of our resource supply chains, I look forward 
to hearing about potential solutions. But if we diverge from 
our subcommittee's readiness jurisdiction in order to blame 
climate change for such things as the negative actions of 
international terrorist organizations or intergenerational 
tribal conflicts, I believe it will be a distraction from 
rebuilding our military's readiness at best or an excuse to 
pursue boondoggles at worst
    Thank you, Mr. Chairman. I look forward to our witnesses' 
testimony.
    [The prepared statement of Mr. Lamborn can be found in the 
Appendix on page 43.]
    Mr. Garamendi. Thank you very much, Mr. Lamborn. We will 
clearly have a discussion in the days ahead, and we will sort 
all of this out, which is our task.
    I want now to introduce our witnesses. I will introduce all 
of you, and then I think, Mr. Titley, if you will start.
    Our first witness is David W. Titley, Rear Admiral, U.S. 
Navy, retired, professor of practice in meteorology at The 
Pennsylvania State University, and he is also the director of 
the Center for Solutions to Weather and Climate Risk.
    Joining him on the panel is Sharon Burke, senior advisor, 
International Security Program and Resource Security Program; 
and Nicolas Loris, Herbert and Joyce Morgan fellow in energy 
and environmental policy, Center for Free Markets and 
Regulatory Reform.
    Welcome. Thank you so very much for joining us. Thank you 
for the written testimony, which I think most of the members 
have in their file.
    And if you will begin, Professor Titley.

  STATEMENT OF RADM DAVID W. TITLEY, USN (RET.), PROFESSOR OF 
 PRACTICE IN METEOROLOGY AND DIRECTOR, CENTER FOR SOLUTIONS TO 
  WEATHER AND CLIMATE RISK, THE PENNSYLVANIA STATE UNIVERSITY

    Admiral Titley. Thank you very much, Chairman Garamendi and 
Ranking Member Lamborn, distinguished members of the 
subcommittee, and other members of the Armed Services 
Committee, for the opportunity to present today.
    I am David Titley and currently serve as a founding 
director for the Center for Solutions to Weather and Climate 
Risk at The Pennsylvania State University. I retired from the 
United States Navy in 2012 as the Oceanographer and Navigator 
of the Navy and Director of U.S. Navy Task Force Climate 
Change. I serve as an unpaid advisor for several organizations, 
including the National Academy of Science and the Center for 
Climate and Security. I am testifying today in my personal 
capacity.
    Let me open with a personal note of thanks to the Congress 
and especially to the House Armed Services Committee for the 
addition of forward-thinking climate-related amendments in the 
markup language for the National Defense Authorization Act in 
2018 and again in 2019.
    Speaking as one with nearly 35 years' experience in the 
executive branch, I will tell you it is hugely helpful to have 
congressional language and intent that encourages the 
Department of Defense to think in a proactive manner when 
managing climate risks. These bipartisan actions would not have 
been possible without significant Republican support, so thank 
you.
    In the Navy, we have a saying: Just give me the bottom line 
up front, or the BLUF. So here is my BLUF for today's hearing. 
Adapting for climate change is a readiness issue. It is not a 
partisan or political issue or a desire to appear green. The 
Department needs to manage the risks of climate change to 
ensure its readiness in the years and decades to come.
    Two, the extremes of yesterday do not foretell the extremes 
of tomorrow. We have an excellent understanding of how our 
climate system operates based on 150 years of science. Science 
works. If we choose to heed its lessons, it will help us 
strengthen our security.
    While we plan for climate, we live in weather, its day-to-
day variations and, more importantly, its extremes. The 
challenge for readiness and resilience is to ensure our 
military bases and infrastructure are designed for and can 
withstand the extremes of tomorrow.
    The rapid-changing climate has significant impacts on our 
national security. The days of climate stability we have 
experienced for most of human civilization are over. Changing 
climate impacts national security in three major ways.
    First, changing the battlespace or the physical environment 
in which our soldiers, sailors, airmen, and Marines will 
operate. The Arctic is a prime example of an operational 
environment today that is undergoing rapid change.
    Two, posing increasing risks to the Department of Defense's 
installations. Without fully operational bases and training 
ranges in the United States in addition to key overseas bases, 
U.S. forces cannot maintain the required levels of readiness. 
In addition to sea-level rise threatening our coastal 
installations, other bases and training ranges are at risk from 
increased frequency and severity of wildfires, droughts, and 
floods.
    And although not the focus of today's hearing, it is 
important to also note that a changing climate can make already 
unstable situations worse and sometimes catastrophically so. 
Climate change can be a powerful link in a chain of events 
that, if not broken, can lead to runaway instability.
    Our rivals have been paying close attention to the changing 
Arctic even while we were not. The Russians are rebuilding 
their Arctic military capabilities, albeit from very low post-
Cold War levels. China declares itself to be a near-Arctic 
state and hopes to build a Polar Silk Road as a northern flank 
in its Belt and Road Initiative. China continues to 
aggressively court the Nordic states and Greenland.
    Climate change and its manifestations is a risk that we 
will need to manage for decades to come. It is not an issue 
that will be solved with any one single policy or program. So 
what to do? I have my full recommendations in the written 
statement, but here are some highlights.
    Develop a Department of Defense-authorized standards for 
use and projections out to 50 years. I recommend the DOD 
produce and aggregate authoritative climate information that 
can inform risk management decisions on time and space scales 
and parameters that matter to the Department.
    Develop a climate impacts handbook for each installation. 
While each installation is different, standardize the handbook 
to the degree practical. The U.S. Navy's Typhoon Havens 
Handbook could be one model.
    Build on and expand existing authorities, programs, and 
resources to ensure the Department of Defense, working in 
collaboration with other Federal agencies and State, local, and 
Tribal authorities, has both the resources and the authorities 
needed to adapt to climate issues that directly impact the 
installation, whether they are inside or beyond the fence line.
    Look for each service's top one or two near-term issues 
that should be supported and addressed today without further 
extensive analysis. For example, ensure our nuclear-capable 
shipyards are protected adequately from rising sea levels, 
storm surge, and freshwater flooding over the coming decades.
    Update our Nation's Arctic Strategy in response to changes 
in our National Security Strategy and Defense Strategy.
    In closing, 50 years ago, we went to the moon and returned 
safely, not knowing everything we needed to know at the start 
of that journey. America can still do amazing things when 
focused. In the future, when we look back, I hope we will be 
rightfully proud of what we accomplished starting in 2019 to 
buy down these climate risks.
    Thank you very much, sir, for your time and attention. I 
look forward to taking your questions.
    [The prepared statement of Admiral Titley can be found in 
the Appendix on page 44.]
    Mr. Garamendi. Thank you very much. I appreciate your 
timeliness as well as your testimony, both written and oral.
    Ms. Burke, if you would care to share your thoughts with 
us.

  STATEMENT OF SHARON E. BURKE, SENIOR ADVISOR, INTERNATIONAL 
  SECURITY PROGRAM AND RESOURCE SECURITY PROGRAM, NEW AMERICA

    Ms. Burke. Thank you, Mr. Chairman, Ranking Member Lamborn. 
I really appreciate the opportunity to be here today to appear 
in front of this subcommittee.
    And I would be remiss if I didn't mention that the 
opportunity to testify in front of a former colleague who is 
now serving the American people in a new capacity is truly 
inspiring.
    I should clarify that I do not speak for my organization 
today. I am here in a personal capacity because they do not 
take corporate positions. I also have been asked to clarify 
that I do not speak for the Department of Defense, nor can they 
necessarily vouch for what I am about to say.
    Now, of course, I did speak for the Department of Defense 
once upon a time, most recently as the Assistant Secretary of 
Defense for Operational Energy. And in that capacity, I got to 
do many great things, and one of them was to travel to 
Afghanistan with the logisticians and to see what these 
problems look like in situ.
    On one of those trips, our protocol officer knew that I 
wanted to see what real housing looks like forward, so she 
showed me her own CHU [Containerized Housing Unit] in Kabul. 
And, now, this was a full-bird colonel, mind you, and she was 
sharing, like, a dingy, rattling compartment that was so small 
I could touch both walls. Down the hall, there was this faded 
poster, this Uncle Sam poster that said, ``Don't waste energy. 
Turn off the lights.''
    So I tell you that not to suggest that this subcommittee 
needs to rush out and build McMansions on forward operating 
bases. I never met anyone in uniform who really wanted a flat-
screen TV in every tent. They know they are at war. I tell you 
that story because, when it comes to energy and climate change, 
it has to be more than a poster on the wall.
    Our troops should know, instead, the opportunity costs for 
the force's immense energy footprint. There was a strategic 
cost, for example, as we trucked Russian fuel--Russian fuel--
through all of Central Asia, which helped destabilize the 
Government of Kyrgyzstan, according to an investigation by this 
body.
    There was a tactical and operational cost as combat 
patrols, convoys, helicopters, and C-130s delivered or 
protected fuel instead of conducting other missions.
    There was a human cost in lives.
    And these sorts of missions require far less fuel than 
would, say, maneuver warfare on the Korean Peninsula or any 
contingency in the Asia-Pacific, with its vast distances. And 
there are potential adversaries there who are capable of far 
more lethal, precise, and far-ranging attacks than an IED 
[improvised explosive device] or a weaponized human body.
    Moreover, the United States increasingly has an electrified 
force, which introduces an entirely new attack surface, one 
that the Department of Homeland Security and the FBI [Federal 
Bureau of Investigation] have publicly warned us that the 
Russians are seeking to exploit even now.
    The Department of Defense should increasingly take energy 
resilience into account as a planning factor and a capability 
enabler. When it comes to fixed installations, as the members 
of this subcommittee know and as you said, Mr. Chairman, in the 
digital age, the bases are increasingly platforms that directly 
support military operations. They shouldn't be seen as 
dispensable overhead or some kind of slush fund. They are 
critical to readiness and to operations.
    The subcommittee should certainly ask the Pentagon to do a 
better job of assessing the vulnerability of these bases, not 
just to changing weather conditions but also to the changing 
threat profile to critical infrastructure. And there is 
tremendous civilian expertise outside the Department, including 
at universities around every base in this country.
    Now, the Pentagon should also be looking at climate change 
in light of our strategic priorities. While the National 
Defense Strategy did not explicitly acknowledge climate change 
as a shaping factor in great power competition, no country is 
immune to its effects, and that includes China and Russia.
    Our Phase Zero Project has forthcoming research on this, 
which we have done together with Pacific Northwest National 
Laboratory. And our early findings suggest that climate change 
will affect China's resource security and shape its strategic 
choices. It already does. We see resource security already 
figuring into the Belt and Road Initiative but also in some of 
China's relationships with key U.S. allies, including Australia 
and Canada.
    Another top Chinese resource partner today is Russia, where 
the trade in energy, minerals, and agriculture undergirds a 
growing strategic partnership which, needless to say, is 
unlikely to benefit the United States, including in the Arctic.
    The subcommittee should certainly ask that the Department 
of Defense report on how climate change and resource security 
will affect great power competition. You should ask, for 
example, how it is affecting our relationships, how we are 
bringing our relationships and alliances and trade into the 
equation. For example, how are we making sure that there will 
continue to be a free market for key minerals, which are so 
crucial to the information economy, to clean energy, and to a 
modern military?
    Climate change is highly likely to affect other military 
missions, such as humanitarian and disaster relief and defense 
support to civil authorities for disaster relief here at home. 
It already has.
    There are also indirect mission implications, as these 
conditions, as Dr. Titley said, may destabilize countries with 
poor or corrupt governance, weak economies, or a history of 
civil unrest and conflict. That, in particular, is not well 
understood, at least in terms of actionable information, and 
that is another role that the committee could play, in asking 
for that kind of information, which would not only help build 
military capabilities but also the broader national security 
priorities for development, trade, and diplomacy.
    So, ultimately, climate change is certainly a security 
concern, but it is not necessarily one with a military 
solution. No soldier, sailor, airman, or Marine can defeat 
climate change by shooting at it or blowing it up, or even 
phishing it with a virus. Climate change is ultimately a 
governance and economic development challenge and fundamentally 
a civilian and a civil society responsibility.
    On the other hand, while the Department of Defense has good 
reasons to account for energy and climate security now, if the 
Nation does not have the adequate civilian capacity, if we do 
not innovate, if we do not get ahead of the changes that are 
underway and coming, they might also want to prepare for a 
worst-case scenario where it is entirely their mission to deal 
with the consequences.
    Thank you.
    [The prepared statement of Ms. Burke can be found in the 
Appendix on page 63.]
    Mr. Garamendi. Thank you very much.
    Mr. Loris.

STATEMENT OF NICOLAS LORIS, HERBERT AND JOYCE MORGAN FELLOW IN 
 ENERGY AND ENVIRONMENTAL POLICY, CENTER FOR FREE MARKETS AND 
           REGULATORY REFORM, THE HERITAGE FOUNDATION

    Mr. Loris. Chairman Garamendi, Ranking Member Lamborn, and 
distinguished members of the subcommittee, thank you for this 
opportunity to testify this afternoon.
    My name is Nick Loris, and I am the Herbert and Joyce 
Morgan fellow at The Heritage Foundation. The views I express 
in this testimony are my own and should not be construed as 
representing any official position of The Heritage Foundation.
    Keeping America safe is a nonpartisan issue. For the 
Defense Department to carry out its missions, ensuring military 
resilience and readiness is critical. Without question, extreme 
weather and long-term climate changes can harm DOD 
installations, training, and operations. Solutions to protect 
against such threats should achieve cost-effective, meaningful 
results.
    In this regard, I would like to make several observations.
    First, preparing for natural disasters and adapting to land 
and water changes over time is pragmatic, commonsense policy. 
Safeguarding against current and future vulnerabilities with 
more durable infrastructure and innovative designs will 
mitigate risks and save lives. Employing local knowledge and 
specialized expertise will help tackle site- and situation-
specific challenges. The accumulation of scientific and 
technical data will assist in detecting the level of threat 
that extreme weather poses to the military.
    Productively, DOD has taken necessary steps to reduce risks 
facing DOD installations and operations. For example, Langley 
Air Force Base used flood visualization tools to understand 
flooding impacts on their base. Accordingly, they installed 
door dams, which are far more efficient and less labor-
intensive than using sandbags. They have also implemented a 
shore stabilization plan and installed pumps to remove 
floodwater from their base. New construction at the base is 
occurring at higher levels of elevation.
    Moreover, Air Force bases in Florida are working with local 
experts to address coastal erosion and routinely conduct 
hurricane preparation exercises. And Navy Region Mid-Atlantic 
is working with a number of stakeholders in the area to protect 
against coastal storms, flooding, sea-level rise, and land 
subsidence.
    This is just a small sample size of what the military is 
doing and should be doing to protect against climate-related 
risks. Congress should ensure that DOD has the necessary 
funding to carry out these activities that ensure military 
resilience and preparedness.
    My second observation is that Congress should refrain from 
implementing costly, ineffective energy policies intended to 
reduce DOD's climate footprint but which instead divert 
resources away from protecting America's vital national 
security interests.
    Although DOD is a large institutional energy consumer, it 
makes up only 1 percent of America's total energy use. 
Expensive, politically driven plans intended to shrink DOD's 
climate impact would have no meaningful impact on climate, 
producing a change in the Earth's temperature that is 
practically too small to even measure.
    Above all else, capabilities should drive DOD's energy 
choices. Policy makers should not force the military to buy 
pricier energy if no national-security justification exists. In 
the past, DOD has spent money on renewable projects or costly 
biofuels where the national and energy security benefits were 
spurious. These policies leave fewer resources for training, 
modernization, and safeguarding DOD infrastructure, resulting 
in a less capable military.
    My third observation is that DOD research and development 
in alternative energy sources can, in fact, produce significant 
economic benefits through spin-off technologies, but that 
spending must prioritize national security needs first.
    Undoubtedly, renewable and alternative energy sources can 
offer unique advantages. For instance, lighter, more efficient 
batteries can lengthen the duration of a foot soldier's mission 
and reduce the weight of his or her backpack; or the use of 
solar photovoltaics can extend the travel distances of drones. 
Furthermore, more fuel-efficient engines reduce the need for 
refueling, which we all know is a risk to our soldiers. And 
developing microgrids and utilizing very small modular reactor 
technologies can safely provide reliable power to isolated 
bases for long stretches of time.
    All of these initiatives can have broader economic value. 
To capture that value, Congress should ensure that the proper 
channels exist for the private sector to commercialize that 
research while protecting classified and sensitive information. 
Doing so will keep America safe while spurring clean-energy 
innovation.
    In conclusion, whether carbon dioxide levels are rising, 
falling, or staying the same, the U.S. and the rest of the 
world will continue to experience extreme weather events. The 
climate will continue to change over time, and DOD must adapt 
to those changes no matter what the cause.
    DOD should continue to identify vulnerabilities and make 
targeted investments to strengthen military installations. 
Moreover, DOD should use the best available science and 
information to prepare for extreme weather and apply lessons 
learned to minimize future infrastructure and personnel risks.
    America's military should respond in kind to longer-term 
climate changes as well. However, wasteful energy mandates and 
spending will have a negligible impact on climate and make DOD 
worse off by allocating defense dollars away from more 
productive uses. Military spending on alternative energy 
technologies can have substantial geopolitical and economic 
benefits, but that spending should be mission- and 
capabilities-driven first.
    Thank you, and I look forward to your questions.
    [The prepared statement of Mr. Loris can be found in the 
Appendix on page 83.]
    Mr. Garamendi. Well, thank you very much, Mr. Loris and Ms. 
Burke as well as Professor Titley.
    Before we launch into questions, just a little housekeeping 
note. This committee is open to all members of the Armed 
Services Committee. So if you have other members of the 
committee that are interested in joining us, please do. And I 
note that one is here.
    Mrs. Luria, thank you so much for joining us from the 
Seapower Subcommittee as well as the full committee. And so, 
pass the information on. So we want as many members of the 
committee that are interested to join us.
    I would draw the attention of the members of the committee 
and the witnesses to the last two pages of the briefing memo 
that Jeanine put together here. Actually, it is the last three 
pages. There are two pages of Code that we have discovered in 
the last two NDAAs that speak directly to the issues before us. 
That is page 7 and 8 of the briefing memo.
    There is plenty of law out there. There are more than 
enough opportunities for the military to deal with the issues 
that have been raised by the witnesses. And our task is to 
address the impacts of climate change on the military. We could 
get into a long, long discussion between Mr. Lamborn and I as 
to exactly how that might be done, but the laws that are on the 
books pretty much tell us which direction we can and should go.
    I think really our task is to make sure that the Department 
of Defense is able to carry out these goals that are already in 
the law. And if we see along the way that there should be 
changes, then we will have the opportunity in the next 3 months 
going forward.
    There is agreement among all the witnesses and, actually, 
between Mr. Lamborn and myself and perhaps the other members of 
the committee that it is in the interest of the military to be 
resilient. It is in the interest of the military to address the 
challenges, whether they are weather or cyber, and to make sure 
that they are able to carry out their mission in those exi--
areas.
    I am having trouble with that word, so please excuse me. I 
will get it by tomorrow.
    In the meantime, just a couple of questions for the 
witnesses.
    Without getting into the cause of climate change, without 
getting into the issue of reducing greenhouse gasses, the 
question for all of you is very direct: Is it in the interest 
of the military to reduce its energy consumption in the 
movement of vehicles, whether they are a ship or a tank or a 
truck or a car, and in the base itself?
    So this is energy consumption. Is it in the interest? And 
what would you say are the first two methods you would 
recommend?
    So let's start with Mr. Loris, and then we will go reverse 
down the----
    Mr. Loris. I would argue, yes, absolutely, as long as that 
reduced energy use doesn't compromise the mission.
    And so I think if there are more investments in fuel-
efficient technologies that reduce the need for refueling, that 
is a commonsense approach. And these investments in battery 
technologies, I think that is offering a number of wide range 
of mission capabilities that we didn't even know existed, let 
alone a decade ago.
    And so I think the potential in the future for those 
technologies, both in the near term and the long term, are very 
valuable from a strategic sense and also just from a broader 
economic sense.
    Mr. Garamendi. Thank you.
    Ms. Burke.
    Ms. Burke. Thank you, Mr. Chairman.
    Yes, I think it is in the interest of the Department to get 
more military output for less energy input.
    So, for operations, you are talking about a future where 
the supply lines can be targeted, you know, with precision 
weapons, with hypersonic missiles. The supply chain is a soft 
target, and our adversaries are well aware of that, as are--any 
potential adversary has seen how well it has worked in 
Afghanistan and Iraq. So it is in our interest to shrink that 
footprint and to protect it better.
    On bases, the same, that the less we use, the more 
resilient we are.
    As far as setting targets, again, I would always put 
effectiveness in the lead, so not so much just set a flat 
consumption target. Because if the force has to go do 
something, they may have to blow that target. So it is better 
to look in terms of the return you get for the energy you use 
and making that balance better and making sure that the energy 
you use serves the mission. Whether it is, as Nick said, 
whether it is a solar hybrid generator or, you know, a diesel 
generator, it has to serve the mission better.
    Mr. Garamendi. Thank you.
    Mr. Titley.
    Admiral Titley. Thank you, sir, for the question.
    I would say it is in the interest of the Department if one 
or both of the following conditions are met: when energy 
savings enhances warfighting effectiveness or/and when such 
efficiencies save money and resources that can then be applied 
to other aspects of readiness. So there has to be something in 
it there.
    As far as what to do, I could pontificate on that, and I am 
not going to. But what I would think about is a process very 
similar to what U.S. Navy Task Force Energy used and I was part 
of when I was on Active Duty. We really looked at both how long 
it would take to return, what was the upfront cost, what was 
the return on that investment. There were a number of things 
that were, like, 2, 3, 4 years. Do them.
    I would also be aware of former Deputy Secretary of Defense 
Bob Work's phrase of ``watch the fuss to fun factor.'' If you 
are going to do it, make sure there is a sufficient return.
    Mr. Garamendi. Thank you very much.
    I will note, Mr. Loris, in your answer to my question, that 
the United States Navy has a hybrid electric destroyer, 
utilizing some of the technology that perhaps you had in mind.
    I am going to now turn to my colleague Mr. Lamborn for 
questions, and then we will go down through the gavel order.
    Mr. Lamborn. Thank you, Mr. Chairman, and thank you for 
having this hearing.
    And I think we have broad agreement, wherever we can save 
energy, let's do so. Wherever we can buy a cheaper source of 
energy that gets the job done and saves the taxpayers money, 
let's do so.
    If it is a more efficient type of energy that is easier to 
transport, has a smaller footprint, as you said, Ms. Burke, 
that is good for the warfighter, as well, for getting those 
energy resources out into the field where they are needed.
    There was an incident in 2011 that I think went in the 
opposite direction, and it still bothers me. The President 
directed the Departments of Navy, Energy, and Agriculture to 
really experiment with biofuels, committed half-a-billion 
dollars on that.
    And among other spending, we had the Navy spending $12 
million on biofuels at $26 a gallon. And that is when jet fuel 
was available at about one-eighth of that cost, 3-something a 
gallon. So, out of that $12 million, my rough estimate is that 
was a $10 million overpayment if you had just bought, you know, 
stuck to jet fuel.
    And biofuels are less dense. You don't get as many BTU 
[British thermal units] per--you know, as much bang for the 
buck, you might say.
    So I view that as going in the wrong direction. Mr. Loris, 
would you agree that that was an ill-advised use of $10 
million?
    Mr. Loris. I would. You know, it is not that I have 
anything against biofuels; it is that I have something against 
biofuel mandates and using biofuels when I don't see any 
national security justification for buying pricier fuel.
    And, again, that is a huge opportunity cost. That is 
potentially hundreds of thousands of dollars that could have 
been spent on conventional fuels that cannot otherwise be spent 
on military resilience and----
    Mr. Lamborn. Yeah, $10 million. And if the day comes when 
biofuels are less expensive, sure, let's experiment with them 
then and see how effective they are, how cheap they are, and 
how available they are. I am a believer in all of the above.
    And, Mr. Titley, Admiral Titley, I am going to ask you a 
question about the Arctic. That is a huge interest of mine. I 
know it is for the chairman also. What are some of the 
opportunities and challenges that we have in the Arctic these 
days?
    Admiral Titley. Well, thank you, sir, for the question. 
And, you know, we could have, as the chair cosponsored when he 
was ranking member, a whole hearing on the Arctic. And maybe in 
a component of a jurisdiction of the Armed Services Committee, 
that would be a really interesting topic.
    What I talk about in my written testimony----
    Mr. Garamendi. Actually, if I might interrupt, we are 
thinking about a wintertime CODEL [congressional delegation].
    Admiral Titley. I am all for it. Watch out for the polar 
bears on the runways, because you don't see them in the winter.
    So the Arctic, as I think everybody knows, is changing 
incredibly quickly. And our great power rivals as defined in 
our National Defense Strategy, both Russia and China, are, 
frankly, taking advantage of this.
    Russia is monetizing their Northern Sea Route. They have 
just, I read in the open press this past week, passed 
restrictions that are trying to basically, frankly, keep U.S. 
and NATO [North Atlantic Treaty Organization] ships--make it 
harder for us to operate in what I think the United States 
would term international waters or waters in which we should be 
able to navigate.
    China is looking at a Polar Silk Road.
    So how are we going to really look at this? It is very 
possible that trade routes could be changing significantly in 
the next, let's say, couple of decades. While that may sound a 
long ways away, you all on this committee know better than me 
that, by the time you appropriate funds for a ship, build that 
ship, and that service life of a ship, that is 30 to 50 years. 
We need to be thinking that far ahead in the Arctic there.
    There will be ice-free summers. There will be ice-free 
falls. Shippers will push the limits of the season. People are 
both going to get in trouble and there will be opportunity.
    We need familiarity in working up there. We need presence. 
Presence can be Coast Guard, can be NOAA [National Oceanic and 
Atmospheric Administration], can be Navy. But we need sovereign 
presence to build on our scientific capabilities.
    There are tremendous opportunities for us in the Arctic. We 
need to pay attention.
    Mr. Lamborn. Thank you. And I would like to highlight for 
anyone who hasn't looked at the briefing memo for this hearing, 
on pages 7 and 8 there are a list of about 25 different 
measures that, in the last two fiscal years--well, the last two 
NDAAs, we put in on a bipartisan basis for the saving of energy 
and the increasing of resilience. So that is something that we 
will continue to work on.
    And, once again, thank you for having the hearing, and I 
yield back.
    Mr. Garamendi. Thank you, Mr. Lamborn.
    Now we are going to go by the gavel order, and that would 
bring next Mr. Crow.
    Mr. Crow. Thank you, Mr. Chairman.
    And thank you to all of you for joining us today. We 
appreciate your time and insights.
    I am particularly interested, I guess, starting with Ms. 
Burke, in your former role, and I obviously would love to hear 
from the others, about the energy resilience and conservation 
program and other similar programs and their capacity and 
impact on cybersecurity.
    Our installations draw a tremendous amount of their power 
from the civilian grid, and that is a very vulnerable grid if 
we were to come under cyber attack. And if our installations 
lost power, we would immediately lose substantial capacity for 
our national defense.
    So, in your experience and background, you know, these 
microgrid projects at Fort Hunter Liggett and Fort Hood and 
other places, do they have the capability to make us more 
secure by removing us from the grid?
    Ms. Burke. Thank you, Congressman, for the question.
    I did not actually oversee that program in my time in 
office, but we were certainly very concerned about electricity 
as an operational input.
    And I agree with the content of your question, which is the 
Department has not really grappled with just how much their 
electricity demand has escalated in the last few years, in the 
last decade; how much it is mission-critical, even here at 
domestic bases; and the relative vulnerabilities of that 
supply, because, of course, we are reliant for almost all of 
our electricity on the civilian grid. And it gets even more 
interesting when you go overseas, because we are often relying 
on host-nation infrastructure. So their vulnerabilities are our 
vulnerabilities.
    I think the Department needs to do a much better job of 
understanding what those vulnerabilities are but also what the 
risk is. So the vulnerability plus the threat adds up to a 
level of risk, and you add in the mission criticalities on 
those bases. So they need to characterize that much better than 
they do.
    And I think, in a lot of places, there is more than one 
right answer to how you improve resilience, but microgrids have 
proven to be one very good answer, especially in a tactical 
environment, as I think you know. But I think they have already 
proven to be a very useful answer in a number of places where 
they have been deployed, including the bases that you talked 
about.
    And just to add one last thought on that, continuity of 
operations is everything. Making sure that the critical loads 
can be served no matter what is essential. But it is also not 
realistic to isolate completely from the civilian community 
around you, because bases are part of that community. And it is 
not just their electricity they get; they also get their water. 
Sometimes people live off post. So they need to also be able to 
work with the community around them and not completely isolate 
from the community.
    Mr. Crow. Okay.
    Admiral Titley and Mr. Loris, I would welcome your 
thoughts.
    Admiral Titley. Just very briefly, sir. Thank you. I would 
absolutely agree with everything that Ms. Burke said there.
    I would only add that the CNA Military Advisory Board, of 
which I am a member, did quite a comprehensive report about 2 
years ago on the vulnerabilities of U.S. military to our 
civilian electric and power grid, and I would be happy to 
provide the committee with that report.
    And just to emphasize Ms. Burke's comment that bases are 
part of the community. We see this in flooding. We see this in 
climate and extreme weather. And this makes it--as hard as it 
is within the fence line, we have to think beyond the fence 
line.
    Thank you, sir.
    Mr. Crow. Thank you.
    Mr. Loris. Yeah, I would just simply echo what Ms. Burke 
and Rear Admiral Titley said. You know, this can provide 
increased resiliency, improved tactical operations, both in the 
United States and abroad.
    And I think there is a number of different maturations of 
what these microgrids can look like, which, again, can have 
broader economic benefits. I think one thing that is compelling 
to me is these investments and research into some of the very 
small modular reactor technologies that DOD is currently 
looking at.
    I don't know if that is ultimately the way DOD will go, and 
they are the ones who should make those determinations, but, 
again, I think that is something that could provide tremendous 
value to our operational readiness all around the world.
    Mr. Crow. Thank you.
    And one last question for Ms. Burke.
    I would love your thoughts on just the cost-savings 
element. And we have already alluded to that. But, very 
briefly, with some of these energy-efficient programs, are we 
seeing some cost savings already at some of these facilities?
    Ms. Burke. Yes, Congressman. We are seeing cost savings. 
And, also, we have financing tools--they have financing tools 
in the Department of Defense that allow them to take advantage 
of private-sector financing so that there is no upfront cost to 
taxpayers.
    And, again, the private sector wouldn't come in and do this 
if there weren't cost savings involved. So those tools, such as 
I think you mentioned energy savings performance contracts, 
have proven successful ways to achieve those goals, those cost 
savings.
    Mr. Crow. Thank you.
    I yield back.
    Mr. Garamendi. Thank you. We might call those public-
private partnerships.
    Mr. Scott.
    Mr. Scott. Thank you, Mr. Chairman.
    Ms. Burke, I apologize for stepping out during your 
testimony. I was listening in there as I talked to a Senator 
literally about disaster relief for the southeastern United 
States, which, apparently, is not coming this week or next week 
but perhaps the following week. And I appreciate my colleagues 
in the House for working with us in the Southeast to resolve 
this issue.
    I want to talk briefly about the Marine Corps Logistics 
Base in Albany, Georgia. As I understand it, this is one of the 
few net-zero installations in the country that we have. They 
use a combination of solar as well as methane gas from the 
landfill that is adjacent to them in a combination of a public-
private partnership to provide energy for the Marine Corps 
Logistics Base in Albany, Georgia.
    When I have been on that base the last few times during a 
couple storms, the issue is the solar panels are destroyed. 
And, in many cases, I will tell you that it--I would just say 
it has reiterated the need to me for redundancy of power supply 
at our military installations, whether that is redundancy with 
traditional sources of power or redundancy with alternative 
sources of power. I very much believe that our bases need to be 
able to function regardless of the environment, the weather 
environment, that we are in.
    I have questions about how do we take the model that 
worked--because what worked in Albany is not going to 
necessarily be the same thing that is going to work in other 
bases. Other bases aren't going to be in close proximity to a 
landfill.
    Where do you see the areas specifically where we have the 
most opportunity with bases to move the fastest with proven 
technology to reduce the amount of emissions that we have in 
the operation of our bases?
    Admiral Titley, is there a base that you have in mind and a 
solution?
    Admiral Titley. What I would look for, sir, is really match 
up what are the resources available. So, you know, in places 
like the Southwest, of course, we have a lot of potential for 
solar energy. In the Midwest is really our greatest potential--
and up to the Front Range is our greatest potential for wind 
energy. There could be some----
    Mr. Scott. If I may, Admiral, would you agree that we need 
redundancy with the wind and the solar and that----
    Admiral Titley. Absolutely. This is----
    Mr. Scott [continuing]. It will almost always be 
traditional sources, what we consider to be----
    Admiral Titley. This is a kill chain. So you have to look 
at generation, you have to look at transmission, and then you 
have to look at how it is used. And it doesn't do you any good 
to get electricity to the building if the buildings got blown 
away.
    Mr. Scott. That is right.
    Admiral Titley. But you have to have all parts of that. And 
just like a kill chain, if not all of it works, nothing works.
    Mr. Scott. That is right.
    Admiral Titley. So you really have to put all of these 
things together. And it is going to be different in different 
places.
    Mr. Scott. Ma'am.
    Ms. Burke. I agree with that, Congressman. And, you know, I 
think the Marine Corps has been very forward-leaning on both 
the resiliency of fixed installations and how some of these 
technologies can help them build resiliency but also for 
operating positions. So it is great to hear that it has been 
successful in your district.
    You said to reduce emissions. I would say that the number 
one driver there is continuity of operations, and particularly 
of critical missions, and let that be the driver. Emissions 
reductions would be an outcome, not the reason. So they do what 
they do so that the mission is protected, but if they are doing 
it right, that is often going to be an outcome.
    Mr. Scott. But we do pursue alternative sources for energy 
in an effort to reduce pollution. Correct? I mean, we are not--
--
    Ms. Burke. For domestic bases, there is law, there is 
statute, and there have been Executive orders--I think they 
have been withdrawn though--to that effect. And, certainly, 
U.S. military bases that are in the United States comply with 
all laws, and they are certainly mindful of the relationships 
with the communities around them, and they want to do the best 
for the communities around them.
    But what I am saying is, the primary driver for them is 
always going to be the mission. And I think that is a good way 
of looking at it.
    Mr. Scott. Mr. Loris.
    Mr. Loris. Yeah, agree. I think it needs to be mission- and 
capabilities-driven first. And it also needs to be site- and 
situation-specific too, because what works in certain regions 
of the country doesn't work in others. And if you are factoring 
in lengthy transmission lines to take the power from where it 
is produced to where it needs to be consumed, you could create 
a whole new set of vulnerabilities.
    So I think it is up to the officials within those bases to 
identify what makes most operational sense for those bases. And 
again, that could include an abundance of natural gas, as well, 
because we have a lot of that in this country.
    Mr. Scott. Sure. Mr. Chairman, my time has expired.
    Mr. Garamendi. Thank you, Mr. Scott.
    I will now turn to Ms. Slotkin so that she can question her 
former boss.
    Ms. Slotkin. It is great to be here. Thank you.
    And we did work together when I was Acting Assistant 
Secretary of Defense, with a few of the folks in the room here, 
when we published the Climate Change Roadmap. And it was clear 
back in 2014, just as it is now, that climate change is a 
national security issue that has implications for our military, 
for our installations, for our ranges, and, overall, the safety 
and security of the country.
    And in our report we talked about doing prudent planning 
and risk mitigation to reverse--or reduce, I should say, the 
adverse impacts of climate change. Even at that time, we saw 
some of our bases were dealing with flooding, some of our 
ranges were unable to be used because it was getting too hot, 
and our soldiers were having to conduct exercises differently 
because of the change in climate.
    In the January 2019 report, ``The Effects of a Changing 
Climate to the Department of Defense,'' which was mandated, I 
think, by this committee, which DOD submitted to Congress, the 
Department reported that 53 installations are vulnerable to 
recurrent flooding, 42 installations are vulnerable to drought, 
36 installations are vulnerable to wildfire.
    And then we all know the changing landscape in the Arctic 
and what it is allowing the Russians and the Chinese to do up 
there. We all should have, like, a blinking light in terms of 
what that is going to do for our future threat perspective.
    So I want to make sure--I feel very confident that the 
Department itself and senior ranking officials within the 
Department understand this as an issue, but, obviously, I am 
concerned the administration is not taking it as seriously as 
we would like by the appointment of a man to look at climate 
change who at least is on record at some point saying that he 
is not convinced climate change is manmade.
    So can you help me--and I would just say, I think the 
aspect that we need to keep in mind--I think maybe, Mr. Loris, 
you mentioned it--is that soldiers do die because we transport 
such a huge amount of fuel. The reports that I have seen is 
that 3,000 casualties between 2003 and 2007 in Iraq were 
because of the transport of fuel.
    So, even if we didn't believe it was a national security 
problem, that climate change wasn't a national security 
problem, just wanting to reduce the casualties to our force 
would be a reason to mitigate our dependency on fossil fuels.
    So can you help me understand, any of you, based on your 
conversations with the Department, what kind of real, prudent 
planning is going on to mitigate the impacts both to our 
facilities and then, separately, on our dependence on fossil 
fuels?
    Ms. Burke. Congresswoman, I am going to take the liberty of 
responding first since you directed it to all of us. Not 
enough. There is not enough going on, and I think that is a big 
problem. And in fact, there has never been a ton of 
institutional capacity to work on these issues. There is maybe 
one person in the Office of the Secretary of Defense who really 
works on this issue full time. And the Department is rolling 
back support for a lot of the assistant secretariats in the 
services that can actually work on these issues--on the full 
range of issues that we have been talking about, including 
cyber resilience of the critical infrastructure.
    So I think that is the first thing, is the institutional 
capacity to actually plan deliberately in a way, whether it is 
for bases or for operations or for understanding the future 
threat, is not good and needs to be better.
    You do see, at a leadership level, recognition, 
consistently now, at least since I know, since 2007, that this 
is a security issue, that climate change is a security issue, 
that energy operations and improving our energy operations is a 
security issue. But the actual follow-through on what that 
looks like and the commitment to it has not been consistent. So 
I think we need to see better capacity, more institutional 
capacity, and more deliberate effort to understand how these 
issues are incorporated into strategy, plans, requirements, 
acquisitions, and bases.
    Admiral Titley. Thank you, ma'am. There are, I think, two 
things here, and sometimes they get conflated. One is, how do 
you provide energy to--especially to forward units? That is not 
a climate issue. That is a safety issue. That is a readiness 
issue. That is an operational capability issue. And it is an 
extremely important one, because people die if you don't get it 
right.
    There is, also, an issue of how do you make sure that our 
installations, where we generate readiness, are ready for a 
changing climate. As Ms. Burke said, there is at least some 
recognition, but there is very little action on this, and what 
action is taken is usually talked around. As you know better 
than probably most people, I tell folks the Pentagon is a 
hierarchical institution. So that means if your boss is 
interested, you are fascinated. But the reverse is also true, 
and right now, the boss is not interested. And I would say, at 
the National Security Council, they have given very definite 
signals: Do not bring this issue up. That makes it much, much 
harder.
    The Pentagon is between a rock and a hard place. They 
understand their board of directors is interested. They know 
they should be. Their boss is not there. And so anything we can 
do to--by law, by money, by appropriations, by language, to 
help them basically overcome the institutional opposition to 
this in the White House will be most useful. Thank you, ma'am.
    Mr. Loris. Can I quickly add one thing? Sorry. I don't have 
to. I just wanted to add the DOD Strategic Environmental 
Research and Development Program I think is a great program 
that helps identify these risks. It enhances our scientific 
ability to minimize risks in the future, and as Ms. Burke said, 
we need more of it because of these installations that are 
currently under threat and potentially under threat in the 
future.
    Mr. Garamendi. This conversation has laid out the task this 
committee has. We know there is a problem. We know that bases 
have a problem. And we also know that there is resistance to 
this issue of climate change, and so we will have to find a way 
of maneuvering through that, at least for the near term, and we 
will do so.
    Mr. Brooks, it is your turn.
    Mr. Brooks. Thank you, Mr. Chairman.
    As a quick overview, I hope that you all will do your part 
in making sure that the military understands that, over the 
past century, sea levels have risen approximately 8 to 9 
inches, which is one-third of the average century rise over the 
last 20,000 years. Over the last 20,000 years, the average rise 
per century has been 2 feet, versus that one-third over the 
past century, which is about 8 or 9 inches. So hopefully our 
military facilities will anticipate, based on history, that 
there will be future sea-level rises that they need to 
anticipate, and we can get into why it is only one-third now 
versus what it was over the entire 20,000-year period. But I 
think one thing is pretty sure is that sea levels are likely to 
rise, perhaps for a variety of reasons.
    Now, to my comment and question on a different matter. Over 
the past decade, many domestic military bases have been ordered 
to install very costly energy projects on their property, 
including solar fields, wind farms, and biomass facilities. In 
theory, the ability to produce energy on military bases should 
increase their resiliency by insulating them from the adverse 
impacts of electricity grids going down due to weather-related 
events or, in the event of a conflict, insulate them from cyber 
attacks targeting vulnerable local electricity grids.
    Ensuring our mission-critical facilities have access to 
electricity power is a worthy goal. However, merely producing 
power on a military base does not necessarily achieve this 
goal. We must also have the physical mechanisms that permit 
transmission of the energy produced on military bases to the 
base's own mission-critical facilities. There are many 
instances where the energy produced on military bases is not 
well utilized due to energy or fuel-storage issues, or 
insufficient control systems.
    In other words, in the event of an emergency, the military 
bases are unable to retain the energy produced on their 
property in a reliable and predictable way.
    Admiral Titley, with that as a backdrop, in your opinion, 
is the Department of Defense investing enough in physical 
mechanisms to direct that energy that is produced on military 
bases be available for base mission-critical facilities?
    Admiral Titley. Thank you, sir, for the question. The 
details of energy management is not my area of expertise. I was 
not the facilities guy. I was the weather guy.
    Mr. Brooks. All right, then, Ms. Burke or Mr. Loris, do you 
have any insight on whether the military should have the 
ability to utilize, for its own bases, the electrical power 
that is produced on its own bases?
    Ms. Burke. Well, sir, the Department has 28 million acres 
under management and half a million structures. So there is not 
going to be a one-size-fits-all answer to that question, but if 
you have a specific place in mind where that is a problem, 
then, yes, I think that there are definitely risks and threats 
that require that kind of management. But I think it is very 
site-dependent.
    Mr. Loris. I think they do need that in many installations. 
Part of the problem is that the national security 
justifications for some of these projects are very nebulous, 
and you don't have to really describe in too much detail why 
you are making these investments. There was a Government 
Accountability Office report from, I think, 2016, that looked 
at a number of different installations that made renewable 
investments--I think it was 17. So kind of a relatively small 
sample size. Seven of them had said that they could supply 
power without the commercial grid, that, you know, if the grid 
went offline, that they would have the ability to supply that 
power. But only two of them actually had that ability. The 
others needed far more investments. Fort Benning was one where 
they needed $30 million of investment. Camp Lejeune was another 
where they needed $48 million in additional investment to 
actually provide power if the commercial grid went offline.
    And so I think that speaks to kind of the broader challenge 
and problem here, is, one, you are talking about more costs--
and maybe those benefits of national security and having power 
when the grid's offline justify those costs, but there needs to 
be, I think, more concrete definitions and justifications as to 
why these investments are being made for national security 
purposes.
    Mr. Brooks. Yeah, my reservation was the discovery that, 
while the military bases may produce the electricity, it goes 
to the general power grid in the surrounding areas and that the 
military doesn't have the ability in every instance to retain 
it for military use if an emergency should arise.
    Mr. Loris. Right. And that was the issue with Fort Benning, 
is that they needed $30 million more to invest in battery 
storage technology to keep that power on the base. So, even if 
the commercial grid went out, you know, that power that they 
are producing at the base is effectively useless without that 
battery storage or any type of energy storage system, as well 
as the distribution capabilities to get it to the rest of the 
base.
    Admiral Titley. Storage is expensive.
    Ms. Burke. Congressman, now I understand better. Yes, you 
are absolutely right. There are places like Nellis Air Force 
Base, which had a large solar field that originally, when it 
was built, only returned electricity. They just used the land, 
and it returned electricity. Although, again, Nellis did not 
pay for the development of that solar field. Ideally, you would 
use that kind of financing and return the power to the grid, 
but then in an outage, the power from the solar would be 
dedicated to the base. And that just reflects that--different 
priorities at the time that it was built, which were on cost 
savings and on ways to leverage the private sector for some of 
those cost savings. Now, I think--for some time now, we have 
been looking more at resilience as the driving concern, so----
    Mr. Brooks. Thank you, Mr. Chairman.
    Mr. Garamendi. Thank you for your question. Mentioned 
earlier were microgrids, and that should be part of this 
discussion. As we go along, we will pick up the microgrid 
issue.
    Our next questioner is Ms. Horn.
    Ms. Horn. Thank you, Mr. Chairman.
    And thank you all for being here. Glad to have this 
conversation on such an important topic. We talked about 
other--the impact of readiness on--on our bases based on the 
number of weather events. But being from Oklahoma, as you might 
imagine, tornadoes are a pretty serious challenge, and not just 
for us, as we have seen in the southeast part of our country, 
and with growing climate change, the severity and the length of 
tornado season, and the lack of predictability is something 
that I think is something important to address.
    So, having said that, Oklahoma averages 56 tornadoes per 
year. Some of the most deadly tornadoes in the Nation have hit 
very close to some of our major bases. And taking this into 
consideration, I just wanted to ask--and I will let this be an 
open question, I think, at first--if you know of any specific 
studies that are being done, that the military is undertaking 
to assess the impacts of tornadoes, specifically in respect to 
the potential impacts on our bases and readiness.
    Admiral Titley. I will start with that. Thank you for the 
question. I think as far as I know, the tornado studies are 
being rolled into larger resilience and severe weather studies. 
And as has been mentioned by all of the witnesses here several 
times, there are large differences between bases in geographic 
areas. So Guam is not worried about tornadoes, but it is a huge 
issue in the Midwest.
    As far as how tornadoes are changing, as you probably know, 
ma'am, this is actually one of the cutting edges of climate. I 
chaired the attribution--National Academy of Science 
Attribution Study, and we found very low attribution on 
specific tornadoes. There have been studies done that shows the 
region of tornadoes is moving, and the time, as you mentioned. 
Oklahoma may be getting fewer, actually. But not to everybody.
    So I think it needs to be rolled in. EF-3, EF-4, EF-5 
tornadoes are very, very hard to survive unless you have a 
strong, reinforced building, and we saw the tragedy, of course, 
in the southeast just a weekend or two ago.
    Ms. Burke. Congresswoman, I have had the great fortune to 
go to Oklahoma City and to Tulsa to talk about tornado 
resilience, and including meeting with members of the National 
Guard there, who, of course, are heavily called on to respond. 
And I think one of the interesting questions, too, is that it 
is not a surprise that tornadoes are going to happen along the 
dry line in Oklahoma. And there are a lot of other weather 
events that happen there, too. It is some of the most 
significant incidents of billion-dollar weather events and of 
nationally declared disasters are in your State.
    It would be a really interesting question about whether we 
couldn't use the Guard more to also look at resilience so that 
they that don't have to always just respond. And I think we 
have seen some really interesting investments in Oklahoma, in 
particular, in Joplin, as well, as far as how do you rebuild in 
a way that makes you more resilient to those kinds of 
disasters, and the Guard may have a role in that.
    Mr. Loris. Yeah, I would just add that, you know, this 
seems like an ideal opportunity for the Strategic Environmental 
Research and Development Program at DOD to invest in this type 
of activity, and maybe they already do, so I am just not 
familiar with that. But I think better understanding the risks 
that are involved and trying to predict, as accurately as can, 
where tornadoes are going to hit, where they may inflict the 
most damage, again, is just commonsense policy that will help 
reduce casualties from these types of storms.
    Ms. Horn. Thank you, and one additional question, just on 
the subject, as we talk about major weather events, whether it 
is flooding or--I know I am short, so I will try to look 
around--whether it is tornadoes, whether it is flooding, 
whether it is the impact of hurricanes, is the question of a 
need for redundancy, not only--we have talked about the grids 
and the power supply within bases--but of capability amongst 
bases in the event that we completely lose capacity in certain 
bases. So that is a question I wanted to ask is where you see 
that and the needs on that subject.
    Admiral Titley. Yes, ma'am. I mean, it is kind of a truism 
in the military: you always have plan B. And that is not only 
in the military; it is also in the civilian side. So I ran the 
Navy's weather prediction--computer weather prediction 
capability. About 15 years ago, we had the opportunity to back 
up the National Weather Service. They had a big fire in their 
computer center, and the Navy backed up the Weather Service. 
Now, it could have gone the other way. So there has to be 
backups.
    When I ran, again, whether we had--Norfolk could back up 
San Diego and vice versa. You always want to make sure you have 
that.
    And just on the tornadoes, I did want to mention, the 
National Science Foundation does have a very robust tornado 
research program, and the military bonuses and can use that 
information. Thank you.
    Ms. Burke. And just quickly, Congresswoman, I think 
inherent in your question is a really important point, which is 
that bases play a really important role in defense support to 
civil authorities [DSCA] during disasters, both in terms of 
their own operations but the communities around them. And I 
think there has to be a very--an effort to deconflict. Where 
are the critical missions? Where are we supported? Where are 
the bases expected to support DSCA? And is the military making 
sure they can do all those things when there is a complex 
contingency and a complex emergency? I think it is a very 
important part of their planning effort that could be more 
robust than it is.
    Mr. Garamendi. Before I turn to our next questioner, Ms. 
Escobar, I just want to put something on the table for the 
committee to consider as we go through these issues, and it is 
called resiliency. And so we have the job of looking at all of 
the military construction projects, all MILCON. Some of those 
will be new; some of those will be retrofits. In every case, we 
should, in my view, require that that project be resilient to 
the risks at that particular location. So if it is the depot 
outside Oklahoma City, and it is tornado country, will that 
building be built to withstand a tornado? Similarly, we are 
going to spend some $3 billion at Camp Lejeune. Will those 
buildings be able to withstand the next flood? Similarly at 
Tyndall Air Force Base, the next hurricane. So that will be 
part of the work that we will be doing going forward.
    Ms. Escobar, it is your turn.
    Ms. Escobar. Thank you, Chairman, and I want to thank you 
for having this hearing and for having us focus on what is 
really just one of the most significant challenges that our 
generation faces, and that is climate change. And I know, for 
the military, it is viewed through the prism and the 
perspective of readiness and national security, but for many of 
us there is an additional perspective, and that is our moral 
obligation to preserve the planet.
    I have two grown children. They are 20 and 22 years old, 
and I think about the planet that they will be inheriting, and 
my heart breaks. I cannot believe that we are facing this 
challenge and that we have been essentially sitting on our 
hands for so long, and even if we take absolute, urgent, and 
really kind of significant action today, we are still going to 
see a very different planet in 2040 than we see today.
    But our role--obviously, the hat that I have on today is as 
a HASC [House Armed Services Committee] committee member. This 
morning, some of my colleagues and I met with the Secretary of 
the Army, and one of the things that we talked about was the 
upcoming budget. And what I really appreciated about that 
meeting was the idea of thinking about the budget today in 
terms of the impact it will have several years from now. And I 
think we need to position ourselves in that same way when it 
comes to climate change and making us ready to deal with that.
    And I think that, while infrastructure is definitely an 
important component, natural resources are another component 
that, you know, an area that really frightens me. You know, in 
El Paso, we have, on Fort Bliss, a key asset for our country, 
an asset that I share with my colleague, Representative Torres 
Small. We had a partnership between Fort Bliss and our City of 
El Paso Public Service Board. And 15 years ago, we celebrated 
the opening of the world's largest inland desalinization plant, 
that takes brackish water and through reverse osmosis produces 
drinking water, because like many southwest cities, we were 
facing and we are facing droughts and limited runoff from 
smaller and smaller snowpacks to our north. And this was sort 
of our solution. And although we opened it 15 years ago, it 
took 15 years of design, plan, funding, building. I feel like 
we are already so far behind on these kinds of innovations 
going forward, especially with natural resources.
    I really appreciated Mr. Scott's comments about what is 
happening in Georgia, about capturing the methane and using it 
along with solar as a way of generating energy.
    I really appreciated Mr. Brooks' conversation about the 
grid and finding ways to capture and save electricity for the 
military installation.
    Do we even have an assessment of best practices? Do we have 
an inventory of who is doing what? Do we have a list of 
opportunities for public-private partnerships or for public-
public partnerships, like what took place in El Paso between 
the city and our Public Service Board and Fort Bliss? Are we 
even that ready in terms of assessing what we have got and 
where we have done well?
    Admiral Titley. I will take a very quick stab at that. 
Thank you, ma'am, for the question. And I fully support your 
feeling that, you know, we are not where we need to be. In 
naval aviation, they say one of the things that is of no use to 
you is runway behind you. We have put a lot of runway behind us 
on this issue. In 2009, I told the Chief of Naval Operations 
this would be a challenge, not a crisis, but if we waited long 
enough, it will be a crisis.
    In my recommendations, in my written recommendations, I 
recommend these so-called climate handbooks, but the types of 
information you mentioned, ma'am, could be in here. I think one 
of the things the Department frankly is kind of struggling with 
is, we don't have, as best I can tell from the outside now, an 
easily accessible sort of database, spreadsheet, whatever you 
want to call it, of information that you could see, that 
Congress could see. We could see where our resources are. We 
could then measure the effectiveness and learn from that and 
improve. And we need to do this and do this in a fast manner. 
So I think these are the kinds of assistance that this 
committee can help the Department with. Thank you.
    Ms. Escobar. Thank you.
    Ms. Burke. Thank you, Congresswoman, and I agree with you. 
I have an 18-year-old who--you know, most of our projections 
about when the damage is really going to set in are mid-
century, and he will be my age. So I do think about that all 
the time, that it is very real for him.
    Ms. Escobar. And he may have children.
    Ms. Burke. I hope so. Not soon.
    Ms. Escobar. But the impact on his children.
    Ms. Burke. Absolutely. And we are behind where we need to 
be. And I would agree with Rear Admiral Titley, that we should 
have an inventory on best practices. I think it is a great 
idea. The one cautionary note I would throw is, remember, they 
don't have a lot of capacity to respond to that kind of 
request. So you either also need to help them build the 
capacity or be very specific that that inventory needs to be 
created by somebody outside the Department because otherwise 
you will see what you saw for the last report, which is, they 
will just put out a memo that says, ``Tell me what you know,'' 
and then you will get what you get.
    Ms. Escobar. Got you. Thank you.
    Mr. Loris. I spent a lot of time looking at Department of 
Energy's National Laboratories and what type of innovations we 
could get from our National Labs at DOE, and I think there is a 
lot of carryover as to what research could look like and how we 
can transition it into the marketplace. And I think there are 
obstacles and bureaucracies in working with the Federal 
Government and our National Labs and even DOD research labs 
that I think if we had better engagement with the private 
sector, you would get more of those spinoff technologies.
    I mean, look at GPS [Global Positioning System]. We always 
credit the Federal Government for coming up with GPS, but it 
was a research mission that was geared for a national security 
objective, and an entrepreneur saw a commercial opportunity and 
spun that to what we have today. There are all sorts of 
opportunities that happen at the National Labs and research 
facilities that we could have more of those types of 
innovations. And they occur, and they occur now and today, and 
they occur on some incremental levels. And that is all well and 
good, but we still need to have better communication and better 
information available so we have the private sector, in my 
opinion, using private dollars to commercialize those 
technologies.
    Mr. Garamendi. Thank you very much, Ms. Escobar.
    I now turn to Ms. Torres Small.
    Ms. Torres Small. Thank you. Thank you so much to the 
witnesses, and thank you, Mr. Chair.
    I want to pick up where my colleague, Representative 
Escobar, was speaking about water and about the real impact 
that climate change has on water, especially in the Southwest. 
I represent southern New Mexico, and Representative Slotkin 
also mentioned the 42 installations that are vulnerable to 
drought. So we see it, of course, here.
    We also see it overseas. In fact, overseas, water ranks at 
the top list with fuel as the number one driver of resupply for 
our troops. So resupply operations are an essential aspect of 
military operations, as we have already discussed, but they 
also draw the attention to remote locations that require 
convoys to resupply.
    So, to all of the witnesses, do you believe the Defense 
Department has incorporated water-resource vulnerability due to 
the increased impact of climate change into their resiliency 
plans for military installations?
    Admiral Titley. I will just start very briefly. I think, 
ma'am, it is in its infancy if it is there. It is, as you 
mentioned on Fort Bliss, I think it is sort of looked at as a 
one of. What we need to do is collectively realize that the 
future will not be like the past. This is not some natural 
cycle that magically comes back. And, therefore, we need to be 
planning 10, 20, 30, for installations, 40 years, into the 
future. So, that whether it is desal [desalination] or other 
opportunities, that we do these in a deliberate manner, cost 
efficiently, effectively; we are not just throwing money and 
wasting money at this. So I think the glass is maybe one-tenth 
full if we are generous.
    Ms. Burke. Congresswoman, no is the short answer. No, I 
don't think so. Now, there are bases where they have been 
taking water into account for a long time, such as Fort Bliss 
but also Fort Irwin in California, which is the area where I am 
from out in the Mojave. So they are well aware that they have 
water constraints, and they have taken them seriously. And 
bases do tend to have very strong relationships with the 
communities around them. So if it is a community problem, the 
base is often going to be engaged.
    However, it is not as systematic as it could be, and you 
alluded to the--or you said directly the problem with military 
operations. And I think that is where there are two interesting 
plays. One is, how does our water constraints going to play 
into geopolitics? How is that going to shape conflict? How is 
that going to shape great power relations? You know, China is a 
water-constrained country. No, I don't think we know that as 
well as we should. I don't believe it is incorporated into the 
way we are thinking about the future as a government, and it 
should be.
    And then, at the operational and tactical level, it was 
certainly a challenge in Afghanistan. We were largely shipping 
plastic water bottles and dropping them to bases that were 
remote. That was not a great way to resupply, and also it left 
us with a hazardous-waste problem that also became a health 
issue for a lot of our forces.
    So I think both at the tactical, operational, and the 
geopolitical level, there is a lot more to be done here.
    Mr. Loris. What she said.
    Ms. Torres Small. Oh, great, then I can ask a followup 
question.
    Admiral Titley. So, ma'am, I would just submit that, just 
like the CNA Military Advisory Board did a report on 
electricity, we also did one on water, water scarcity, 
potential for water conflict. I would be happy to submit that 
to the committee.
    Ms. Torres Small. That would be great.
    Admiral Titley. Thank you, ma'am.
    Ms. Torres Small. And just a quick followup, and Mr. Loris, 
if you want to take this one, to the extent that we are 
planning for water scarcity, do you also advise that we include 
potential impact, environmental impact that we are already 
seeing? So, for example, with PFAS [per- and polyfluoroalkyl 
substances] and other places where our limited supply for water 
in aquifers is also threatened by other means?
    Mr. Loris. Yeah. And, again, I think this gets back to 
hopefully what we were all saying earlier, is that if it is 
with regard to what the military is doing, it needs to be 
capabilities- and mission-driven first, and then if there are 
other environmental beneficial outcomes, that is certainly a 
welcome bonus.
    Ms. Burke. Again, I agree with that. Of course, I mean, 
that is what I did in office, and it was our guiding principle. 
But at the same time, the Department of Defense doesn't exist 
in isolation from the rest of the country, so national 
priorities and national security, writ large, what is good for 
our communities, and what is good for our people does drive the 
Department of Defense. Moral obligations, the future, that is 
part of their responsibility as a public good as well. So I 
just want to throw that in there.
    Ms. Torres Small. Thank you. I yield the rest of my time.
    Mr. Garamendi. Ms. Haaland.
    Ms. Haaland. Thank you, Chairman.
    And my apologies, I think there is pollen in the air or 
something like that, that I am not used to. In New Mexico, I 
would be fine, but here it is a different story. So please 
excuse me.
    This question is for Rear Admiral Titley. The DOD provided 
testimony to the House Armed Services Committee last year that 
it had a maintenance backlog of over $116 billion. We have 
heard testimony in both Chambers this year regarding the 
negative impacts that poor military housing conditions have had 
on the health and safety of our military members and their 
families, which, of course, is a readiness issue.
    Rear Admiral, is it safe to say that older, poorly 
maintained infrastructure is also less resilient to extreme 
weather events such as hurricanes?
    Admiral Titley. I think, ma'am--thank you for the question. 
I think in general we certainly have seen that. Building codes 
have evolved, structures have evolved. We see this in 
earthquakes. We see this in winds. We see this in flooding. In 
general, older buildings are less resilient.
    Ms. Haaland. Thank you for that answer.
    In President Trump's press conference announcing he would 
divert funds from DOD programs, including military 
construction, for his border wall, he said that the original 
intended uses of those funds didn't sound too important to me, 
quote/unquote. Given the now well-documented substandard 
housing conditions existing at many bases, including in my 
district, like Kirtland Air Force Base, and the fact that the 
damage to both Tyndall Air Force Base from Hurricane Michael 
and Camp Lejeune from Hurricane Florence appears to exceed $3 
billion for each installation, how important do you think it is 
that we prioritize rebuilding safe, resilient infrastructure at 
our military installations?
    Admiral Titley. Again, thank you, ma'am. I can tell you, 
last week I was down at Fort Bragg talking to the troops in the 
10th Airborne about climate issues. One of the things the 
troops reinforced to me was the importance of safe family 
housing and safe bases while they are forward deployed. There 
is nothing more distracting if you think that your family is 
not safe, for whatever reason, including extreme weather 
issues, but it can be other things as well. That is a huge 
distractor.
    I lived through Hurricane Katrina and I dealt with a 
workforce that went through Ground Zero on Katrina. I can tell 
you firsthand, it is a massive distraction, unless we have 
adequate funding for adequate housing so that our families are 
taken care of because that is a critical readiness issue.
    Ms. Haaland. Thank you so much. I have a little bit of time 
left. I am going to move to training impacts. One of the 
functions of military installations is to train our force. And 
I think, Rear Admiral, you can take this first. Can you provide 
examples of how climate change impacts training?
    Admiral Titley. There are many examples, ma'am. I will just 
give you two very quickly here, is, with the combination of 
drought and heat, and it is not just the drought by itself, but 
drought and heat, tend to make ranges, firing--live-fire ranges 
much more combustible. It turns out that neighbors don't really 
like it when you set fire to the range because they think their 
stuff is going to burn down, too. So that restricts your live 
fire, which we do, as you know, ma'am, very high-end training 
so that our troops are as ready as they can be.
    The other part, and this is some research that is just 
going on. I have been talking to climate central on this, is, 
we are looking at how many and how much increase in so-called 
black flag days, days where personal training is greatly 
restricted because of a combination of heat, humidity, and 
sunlight. And we believe we are seeing an increase in that. The 
research is very preliminary, but those are just two ways, of 
many, that training is being materially affected. Wildfire 
smoke, not just the wildfires, but the smoke can shut down low-
level aviation. That is another one.
    Ms. Haaland. Yes, thank you. That is important.
    Ms. Burke, would you care to----
    Ms. Burke. Yes, Congresswoman, I would agree with that and 
also point out that I think Fort Carson had a big fire not so 
long ago. So it definitely can have a direct--and that is 
predeployment training. So you don't want to lose any time on 
range.
    Also, a lot of the Navy bases are littoral, of course, as 
you would expect, and flooding and sea-level rise can also 
affect both training and operations, and we certainly see that 
locally here down at Norfolk. They have a problem with even 
nuisance flooding, as they call it, meaning it is not raining 
and there is no particular storm surge, but they still have 
water on the base that is a problem. So it is definitely a 
problem.
    Also permafrost in Alaska--which are unique training 
ranges, that we don't want to lose access to--as it melts, it 
causes all kinds of problems. So I think there is definitely a 
training impact.
    Ms. Haaland. Thank you so much.
    Chairman, I yield.
    Mr. Garamendi. Thank you very much.
    I will now return to Mrs. Luria.
    Mrs. Luria. Well, thank you, Mr. Chairman, for letting me 
participate in this hearing, as I am not normally on the 
Readiness Committee, but I am on Seapower, and I do represent 
the Hampton Roads region, and so I will just quote from the 
recent report that was required by the 2018 NDAA and was 
delivered in January 2019. Navy Region Mid-Atlantic and the 
greater Hampton Roads area is one of the most vulnerable to 
flooding of military operational installations in the United 
States. Sea-level rise, land subsidence, and changing ocean 
currents have resulted in more frequent nuisance flooding and 
increased vulnerability to coastal storms. As a result and to 
better mitigate these issues, the region has engaged in several 
initiatives and partnerships to address the associated 
challenges.
    So I will state that, at our local level, between Federal, 
State, and local government, there is a lot of coordination, 
there is a lot of communication. We are working to establish a 
center of excellence for sea-level rise and recurrent flooding 
through our local universities and local, State research 
activities.
    Yet the main problem that we see is there really are not 
any resources currently allocated behind fixing these problems. 
And in the preparatory documents for today's hearing, when 
speaking of the same study, it says that it did not meet the 
congressional reporting requirements to describe future focused 
mitigations that would be required to ensure the resiliency 
that we are looking for. And reading through your testimony 
ahead of time, there were a couple of things that were 
mentioned.
    So, Admiral Titley, you mentioned that simply, quote/
unquote, walling off and protecting only the physical base will 
not be effective. I would like to comment in response to that, 
that, you know, throughout the local area and the three joint 
land use studies that are under way within the Hampton Roads 
area--the Norfolk one having recently been completed, Virginia 
Beach in progress but about to be released, and the one on the 
peninsula for Hampton--what I found with my coordination with 
the Army Corps of Engineers is that we are actually doing the 
opposite of that. We are not walling off the bases and only 
studying them. The joint land use studies within the community 
are not including Federal property. So it is quite a conundrum 
when the water doesn't care about city or municipal boundaries 
when our process doesn't allow us to take into account the 
Federal property and the impacts on that and we are only 
looking at it from the city level.
    So, Admiral Titley, you mentioned a risk-management 
approach, and I think that a thorough risk-management approach 
and something similar to your climate-impacts handbook that 
would lay out the impacts and the cost to our military 
readiness and the cost to upgrade these facilities is really a 
critical thing that we need for decision making in the future. 
And you also said that each service should determine its top 
one or two. Well, we have eight major installations in the 
area, and in the documents, in your testimony here, the bases 
within our district and our Hampton Roads region are mentioned 
no less than half a dozen times between Norfolk and Joint Base 
Langley-Fort Eustis. And I, you know, laud your quoting of the 
part about the sandbags, but, you know, just finding a solution 
to cut sandbags by 70 percent is really just the tip of the 
iceberg on what we are going to need to do in our region to 
combat sea-level rise and recurrent flooding.
    So, Mr. Loris, I will quote you. You said that DOD should 
identify current and near-term vulnerabilities and make the 
necessary and targeted spending to strengthen military 
installations. So I agree with that completely. But as you 
know, also, we have to deal with limited resources, and I 
think, one, we need to identify these issues, we need to study 
them, and we need to determine our priorities. But I also think 
that we can address these as well with some other things that 
don't necessarily immediately cost money. There is quite a bit 
of land in our region, for example, that doesn't directly 
benefit the military's mission, and I think that coordination 
between the localities and the adjacent military bases and 
installations, that land could be used to facilitate flooding 
mitigation, essentially at no cost to DOD but in a sharing 
partnership where the land could be provided to some degree for 
use by the municipalities and then also to mitigate the 
flooding on DOD installations and the access roads.
    And I will finish by going back to the list of things that 
were authorized in the 2019 NDAA, which is the Defense Access 
Roads Program. That is an essential program, but we didn't put 
any money behind it last cycle. So, with the local 
municipalities in our area have identified numerous access road 
projects that will benefit the reliability of access to our 
military bases within the region, and I think that that is very 
important that we put resources behind that to provide for 
future resiliency.
    And, lastly, the new-start designation by the Army Corps of 
Engineers, I think that we should look at in that process 
through the Army Corps of Engineers, flooding and sea-level 
rise and the impact of flooding and sea-level rise on military 
readiness as additional factors in determining how we rank 
those limited number of new-start or even potentially add 
additional new-start designations on a yearly basis to take 
into account the impacts on DOD readiness since there is a 
limited number of those designations offered each year.
    So thank you. And thank you for giving me the opportunity 
to speak. I know I didn't really ask a question, but because 
this is such a critical issue to our region and all of our 
services and Coast Guard located in the area, I just really 
appreciate the opportunity to speak and provide feedback on, 
you know, the good research that you have done here and how 
that can help, you know, us as armed services make----
    Mr. Garamendi. The information you provided is very, very 
helpful to us. We know that we have to deal with the ports--or 
the military, naval institutions there. And your background 
will be very useful as we sort out how we are going to do that 
and allocate money and resources.
    Mr. Carbajal, you are next, and then we are going to turn 
to the two members of the committee that have joined us. So----
    Mr. Carbajal. Thank you, Mr. Chair, and I, too, am not part 
of this committee, so I appreciate the opportunity to 
participate with this subcommittee.
    In light of some statements that have been made, I think it 
is important to recognize that we are not trying to use the 
military or national security as a tool to promote or advance a 
political argument that climate change is real. There is no 
question that climate factors are impacting military missions 
globally, whether it is in the Arctic or in Africa, such that 
the former Secretary of Defense Mattis once said that one of 
the most significant threats facing our national security is 
climate change.
    And our jobs, along with the military's, is to ensure that 
the planning and resources are in place to address factors that 
may disrupt our missions and this includes climate factors. 
Unfortunately, until recently we have not provided the 
necessary resources for the Department of Defense to address 
the impacts of these climate factors, which is why we are here 
today.
    I agree with Ms. Burke that the instability effect is the 
most important climate security concern. Climate change is and 
will continue to be a factor in a host of human security 
issues. And oftentimes these human security issues lead to 
regional conflict, which may or may not involve the 
intervention of the American military. Furthermore, unresolved 
human security issues leave a void that terrorists or extremist 
groups can take advantage of. When looking at long-term 
planning for the U.S. military and installations, climate 
factors must be considered.
    I represent Vandenberg Air Force Base. Vandenberg suffered 
from a severe canyon fire in 2016, where several facilities on 
the base lost complete power, and a scheduled rocket launch was 
canceled. The facilities that lost power were operating off a 
generator until the power lines were repaired. If a base as big 
as Vandenberg lost all its power due to another disaster, I 
wonder if their generators would be able to provide them power, 
enough energy, to function for 14 days.
    Ms. Burke, actually, I am very concerned about the risk 
that wildfires pose to our installations.
    Ms. Burke and Admiral Titley, can you characterize the way 
that wildfires threats have changed, and, two, what kind of 
steps can installations take to improve the resilience to this 
threat?
    Admiral Titley. Okay. I am told the science goes my way. We 
will try not to make this too much of a science thing, but 
basically, as you know, sir, certainly in California--but we 
see this in large parts of the country--the wildfire season is 
expanding. And when we see fires, they tend to be more intense. 
There are many reasons for this, but one of the reasons, not 
the only one, but one of the reasons is certainly the increased 
heat and what we have seen as drought in many places. So the 
risk from wildfires, regardless of the cause, is going up.
    As far as the mitigation, I think places like CAL FIRE 
[California Department of Forestry and Fire Protection] and 
some of the Federal agencies have pretty good understanding of 
how do you deal with these fires, including setbacks, including 
the kinds of roofs, including the way you build basically 
barriers. But I think unless you have been in one of these 
fires, or near them, it is impossible to understand how fast 
they go, how hot they go, and how far they can throw embers, 
which then get the fires going.
    So, again, as I have mentioned several times here, the 
future is not like the past, and we have to, as we build or 
rebuild places, we have to think about how do we manage, if we 
are going to be in an urban-wildfire interface, how do we 
manage that, and can we manage that, or do we need to move?
    Ms. Burke. Congressman, thank you for your question, and as 
a native Californian, I respond in particular to the fire risk. 
It is where my family is, so I am very concerned about it. I 
think for the military, you asked--you made some very cogent 
points. It is about resilience to the mission, and my former 
colleague--John Conger, is sitting behind us--did a lot of work 
on just how much generator capacity bases have on hand. And I 
don't think anybody has 14 days of backup power. So that is an 
excellent point that that would be a problem, and they would 
have to figure out what to do about it. This is one reason why 
microgrids are a potentially good solution to be looking at, as 
well as other kinds of resilience investments.
    I also think it is worth talking about the mission impacts. 
So, if wildfires in a place like California, which I am pretty 
sure that the Department of Defense is the single largest 
employer and landholder in the State--so I don't think a lot of 
Californians know that, but it is the case. And there is a huge 
variety of kinds of missions, and then there is also the 
National Guard, the California National Guard, which is very 
actively responding to these kinds of incidents. So I think 
that the Department of Defense needs to do a better look at 
what is the future trend line for these kinds of disasters. You 
know, how much more frequently are we going to see disruption 
or are we going to see missions? I don't believe they have done 
that kind of deliberative, active planning for these kinds of 
disaster missions, and I think it is really important that they 
do.
    Mr. Carbajal. Thank you, Ms. Burke.
    And, Mr. Chair, if I could just finish with the 20 seconds 
that I have to conclude here, I just want to reiterate that in 
my district I also represent Camp Roberts, and they have 
expressed to me that they don't believe they could sustain 14 
days if they lost power on a generator. This is a readiness 
issue, and I do hope that we address this important--these 
important issues in this year's NDAA.
    Thank you, Mr. Chairman. I yield back.
    Mr. Garamendi. Thank you, I will not get into the fire 
issue because that could go on for several hours.
    However, I would like to call upon Mr. Kim for questions.
    Mr. Kim. Thank you, Chairman.
    Thank you so much for taking the time to come and brief us 
on this and take our questions.
    This is an issue that I am trying to wrap my head around 
more, in terms of how DOD presence in my district connects with 
climate issues across the board. And the way I am thinking 
about it is in terms of three angles. One is about response. So 
I live in New Jersey, the Third District. This is where Joint 
Base McGuire-Dix-Lakehurst is, and that joint base served as 
the focal point for the coordinated response to Superstorm 
Sandy. So I see that as one angle in which DOD is connected 
with climate issues in my district, because we know that it is 
going to be a matter of when, not if, we get hit by another 
storm.
    Two, it is about research, and research and assessment. 
Right now, we have the Army Corps of Engineers in the district 
doing an assessment on back bay flooding and sort of the issues 
there and what we can do to mitigate the constant threat that 
we have from rising sea levels and other issues.
    And the third one is about resources. And I think a lot of 
what has been talked about here in terms of the footprint of 
the joint base, energy consumption, and different angles on 
what we can do to try to make the joint base to be stronger in 
terms of drawing upon alternative sources of energy.
    I just want to start by, is that the right frame, or is 
that a helpful way for me to approach it? Are there things that 
I am missing, other angles in which I should be thinking about 
how to draw upon DOD and involve them on these issues of 
climate in my district? And, number two, more specifically, 
when it comes to energy issues, what are your thoughts, kind of 
seeing across the board? You know, I kind of focus and zoom in 
on McGuire-Dix-Lakehurst, but what are the other kind of ways 
that other bases, especially in the Northeast, are approaching 
trying to diversify their energy sources? So I will just open 
that up to the group.
    Admiral Titley. Thank you, sir. I will take a shot at a 
very quick response to that. I think that is a pretty good way, 
in fact, it is a really good way of thinking through things. I 
might add a fourth R, and that is resilience. It is hard to be 
the center of response if your base itself is kind of beaten up 
there.
    On research, I will just plug something that the Congress 
has supported now since fiscal year 2013. There is a program 
the Navy submitted called Earth System Prediction Capability, 
and basically this is a program spearheaded by the Navy, but 
with NOAA, NASA [National Aeronautics and Space 
Administration], and our National Labs, and the U.S. Air Force, 
of course, to work what I call the zero hour, or very near-term 
weather, all the way out to about three decades. And they are 
really working on the seasonal and subseasonal part right now.
    So how do we give planners an idea all the way from 90 days 
to a year, not only in the United States but also where 
potential contingencies may come? The Congress and both Armed 
Services Committees in the Senate and House have been very 
supportive of this program. The Weather Research Forecasting 
and Improvement Act directs NOAA to collaborate with the 
Department of Defense on this important program.
    So, in addition to SERDP [Strategic Environmental Research 
and Development Program] that has already been mentioned today, 
I just wanted to mention that since you talked about research. 
I will defer to the other witnesses on your other parts of the 
question on the energy, sir.
    Ms. Burke. I think it is a good frame for looking, 
Congressman, at the issues and particularly the bases are--you 
know, it is definitely a hierarchical command as you know, but 
it is also very decentralized. And the bases have a lot of 
latitude to engage with the communities around them. And so not 
just to call on DOD for research and support, but also to work 
with local universities and municipal authorities to 
investigate risk in the same way that Congresswoman Luria 
mentioned.
    I think also Congresswoman Haaland mentioned that as you 
are looking at spending for bases, these are the kinds of 
issues you should be considering upfront, not as a sort of 
after the fact, asking them to take it into account. Ask them 
to take it into account upfront as they are getting their 
money. And there are other research pots of money that can also 
support this kind of activity, this kind of research.
    Mr. Loris. Yeah, I would echo that. I think the cooperation 
is key when you are looking at cooperation with the local 
community, with local experts who have been in that region and 
have studied different land use changes over time. Pulling in 
the appropriate scientists and the specialized knowledge and 
expertise to better help DOD identify what that preparedness 
for resilience should ultimately look like.
    I think, when I have seen DOD installations make the 
necessary adjustments to storms and learn lessons from previous 
storms, engaging those appropriate stakeholders has resulted in 
productive outcomes to minimize the risks for infrastructure 
and personnel in the future.
    Mr. Kim. Great. Thank you. That shared foundation, shared 
language of how we approach these problems is something that we 
are trying to build with the community. As we know, we have 
different interests and perspectives coming at this from 
different angles, and hopefully that will help us in our own 
district. Thank you for your input. I yield back.
    Mr. Garamendi. Thank you, Mr. Kim.
    Ms. Houlahan.
    Ms. Houlahan. Am I last but not least?
    Mr. Lamborn. Last but not least.
    Ms. Houlahan. Okay. Thank you so much.
    Mr. Garamendi. No, actually, Mr. Lamborn and I have the 
last word.
    Ms. Houlahan. Wonderful, wonderful.
    And thank you so much for the opportunity to ask questions 
of you all.
    I have a similar line of questioning in the sense that I am 
using personal experience to try to make sure I can wrap my 
head around these really important issues.
    I served in the military. I served in the Air Force. I did 
my field training at Tyndall Air Force Base, which is no longer 
really an operational base. And one of the things I read in the 
preparation materials was about black flag days. And back when 
I was doing my field training, we had a lot of them, and this 
was in the late 1980s. Those days when we weren't able to 
exercise, we weren't able to get ready, be ready, because the 
weather was just too awful.
    And fast-forward another 30 years, and as you know, the 
climate has gotten increasingly more and more erratic down in 
that area to the point where, with that latest hurricane, it 
has obliterated much of Tyndall Air Force Base. So one of my 
questions has to do with, do we have a way to quantify and 
measure those black flag days and the consequences to our 
readiness and to our troop training? That is my first question, 
and I don't know which one of you all would be best able to 
answer that question.
    Admiral Titley. I will start with that. I think as you look 
at putting together training--now, I have not run a training 
base, but I have been responsible for training in other--other 
components--you always build in a little bit for, you know, for 
weather, for other contingencies. Similar to humanitarian 
assistance, we can do some of it, and it really doesn't impact 
things that much, but at some point, you start impacting 
readiness, right? I mean, it is like a shutdown. You can do a 
shutdown over a weekend, but you do it for a month, and there 
is a big--there is a huge impact.
    As I mentioned earlier, we are actually looking at trying 
to quantify the increase in black flag days, and that would be 
sort of the first step. Do we see how much has changed up 
until, let's say, 2019, and then using various models, how much 
is it going to keep changing. And then my recommendation, 
ma'am, is work with the training commands of the services to 
say: Hey, at, be it where, you know, the different services do 
their training, tell me the impacts.
    So I would kind of go to the horse's mouth, if you will, of 
the people who are responsible and accountable for training, 
whether it is advanced or basic training or anything in 
between, and say: If you have these kind of days missing in, 
let's say, 10 years, 20 years, 30 years, what will you do? How 
will you manage that risk? And that is how I would look at it 
to try to really find out from the people accountable, how are 
they going to do this rather than----
    Ms. Houlahan. Can I ask a more proactive question then, 
which is, I guess, that I would assume that we probably know 
the answer to that question in that in the last few decades, 
there has been more and more of these kinds of days. Should we 
be more proactive in the sense of not maybe placing training 
bases in the panhandle of Florida and maybe putting them 
somewhere where the weather may be more temperate and more 
realistic, more days available for training?
    Admiral Titley. Well, I used to live in Mississippi, and 
now I live in Pennsylvania, so you can take that, maybe, as an 
answer. I think we are going to have to look at that. And I 
know this becomes incredibly contentious, right, because that 
sounds, you know, like a four-letter word starting with B, and 
I am not going to grab that 440-volt line right now. But we 
are--you know, one of the things I think the Department, from a 
readiness perspective, has to look at, is, where best can we do 
the missions? Lots of things go into that, but weather is one 
of those components.
    Ms. Houlahan. So my last question, with my last minute, has 
to do with Tyndall as well, which as one of my colleagues from 
a former life has recognized, that--that construction and 
resilience is a big deal, you know, making sure that we are 
prepared for the climate of tomorrow. And so she is in the 
process of--literally the innovation is longer nails for 
roofing, you know, so that wind speeds won't necessarily tear 
roofs off the way that they have been. Is that something that 
in rebuilding a base like Tyndall that we are already thinking 
about, as sort of those resilience, and are we learning from 
the civilian sector in terms of how they are rebuilding things?
    Admiral Titley. In my written statement, ma'am, I recommend 
we do that. So I will give you an example. After Andrew went 
through Homestead, Florida learned a lot of this and they had 
pretty good building codes. I then bought a house a decade 
after Andrew. It was a new house, north shore of New Orleans, 
Lake Pontchartrain. No building codes. Oh, hurricanes don't 
come here. Well, they do, and they have huge impacts. So it is 
not only learning the lessons--we know a lot of these lessons; 
they aren't rocket science; they aren't even that hard--we need 
to execute them. We need to do it on our bases but also in our 
communities where our people are living.
    Ms. Houlahan. Thank you very much, for everyone, for 
sitting and waiting for me. I am sorry. I was at a different--
different hearing----
    Mr. Garamendi [continuing]. Stick around.
    Ms. Houlahan. Of course.
    Mr. Garamendi. The final words will be from Mr. Lamborn----
    Ms. Houlahan. Of course, sir.
    Mr. Garamendi [continuing]. And myself.
    Mr. Lamborn.
    Mr. Lamborn. I want to thank the witnesses for being here. 
I appreciate the testimony of each one of you. And I do want to 
call attention to the fact, I mentioned this earlier, on pages 
7 and 8 of our hearing memo, there are scores of provisions 
that, on a bipartisan basis, we put into the NDAA over the last 
2 years, when Republicans were in the majority, and here are 
the kinds of provisions that we put in there: Section 2831(a) 
adds energy resilience as an element of readiness policy for 
the Department, directs the Department to ensure readiness of 
the Armed Forces through pursuing energy security and energy 
resilience. Section 2833 requires the Secretary to prioritize 
energy security and resilience in awarding energy and fuel 
contracts. Section 314 encourages development of operational 
energy policies that improve warfighting capabilities through 
energy resilience and energy security. Section 312 includes 
energy resilience and energy security measures among the list 
of uses for energy cost savings resulting from energy savings 
contracts.
    And I could go on and on. So this is something Congress has 
been diligently pursuing. I am glad that we will keep giving 
attention to it, and any time we can save the taxpayers money 
by finding cheaper sources of energy, to me that is a good in 
and of itself because we spend a large amount of money, but we 
can't afford to have any of them misspent or used 
inefficiently, whenever possible, for the sake of the 
taxpayers.
    Plus, using less energy also has environmental benefits, 
and I would absolutely agree with that as well. So let's keep 
working on these things. I appreciate having the hearing, and, 
Mr. Chairman, I yield back.
    Mr. Garamendi. Mr. Lamborn, thank you very much.
    Just a couple of comments. First of all, a very big thank 
you to the witnesses. Your willingness to engage in the 
discussion with us has been extremely helpful to all of us.
    I wanted to just briefly address the issue that Ms. 
Houlahan raised with regard to Tyndall Air Force Base. It is in 
harm's way now. It has been in the past and it will be in the 
future. And the question that this committee is asking--and we 
will expect an answer from the Air Force--does it make any 
sense to rebuild at that place? There are some very powerful 
reasons to be at that place, having your own experience with 
the exercise testing range offshore. All very important, but we 
are going to ask the very, very hard question about just how 
much is going to be done at that base. And similarly with Camp 
Lejeune, are there other places that certain parts of the 
mission or all of the mission should be conducted? And then, if 
it must be at those locations, the requirement will be that it 
be built to maximum resiliency given the threats that exist 
there. Similarly, on every other MILCON project, wherever it 
may be around the world, that the all new MILCON, all new 
reconstruction or improvements be built to maximum resiliency 
for the threat in that area. That is what I think this 
committee intends, listening to the witnesses, listening to the 
participation here. So we will be moving in that direction.
    I will also note that I was really pleased to hear Mr. 
Scott talk about methane from a landfill next to Beale Air 
Force Base, as a very large landfill that has not been utilized 
for its methane but will be in the future, and I suspect there 
will be some sort of a pipe from that landfill to the microgrid 
at Beale. And any other place we have a landfill, we will use 
it. Enormous potential here and enormous need.
    Thank you very much for the witnesses and for the 
participation of the members.
    Mr. Lamborn, thank you.
    Mr. Lamborn. Thank you.
    Mr. Garamendi. We are adjourned.
    [Whereupon, at 4:02 p.m., the subcommittee was adjourned.]

     
=======================================================================

                            A P P E N D I X

                             March 13, 2019
      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 13, 2019

=======================================================================

            
   [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
   
                                [all]
</pre></body></html>
